No. 19-1253
IN THE

KENNETH SHELTON,
v.

Petitioner,

ANTHONEÉ PATTERSON,

Respondent.

On Petition for a Writ of Certiorari
to the Commonwealth Court of Pennsylvania
REPLY BRIEF IN SUPPORT OF
PETITION FOR WRIT OF CERTIORARI

STRADLEY RONON STEVENS & YOUNG, LLP
Mark E. Chopko
2000 K Street, N.W.
Suite 700
Washington, D.C. 2006-1871
(202) 419-8410
mchopko@stradley.com

Danielle Banks

Counsel of Record

Adam D. Brown
Brandon M. Riley
2005 Market Street
Suite 2600
Philadelphia, PA 19103
(215) 564-8116
dbanks@stradley.com

Counsel for Petitioner, Bishop Kenneth Shelton

ii
TABLE OF CONTENTS
Page
INTRODUCTION ........................................................ 1
ARGUMENT ................................................................ 2
CONCLUSION ............................................................ 9

iii
TABLE OF AUTHORITIES
Page(s)
Cases

Hosanna-Tabor Lutheran Church &
School v. E.E.O.C.,

565 U.S. 171 (2012) ............................................ 7, 8

Jefferson Woodland Partners, L.P. v.
Jefferson Hills Borough,

881 A.2d 44 (Pa. Commw. Ct. 2005) ...................... 4

Jones v. Wolf,

443 U.S. 595 (1979) .......................................passim

Kedroff v. St. Nicholas Cathedral of
Russian Orthodox Church in N. Am.,

344 U.S. 94 (1952) .........................................passim

Our Lady of Guadalupe School v.
Morrissey-Berru,

591 U.S. ___ (July 8, 2020),
140 SCT 2049 ..................................................... 7, 8

Patterson I, 2008 WL 9401359

(Pa. Commw. Ct. Jan. 31, 2008) ............................ 4

Patterson II, 2015 WL 9260536

(Pa. Commw. Ct. Dec.18, 2015) ............................. 5

Patterson III, 175 A.3d 442

(Pa. Commw. Ct. 2017) .......................................... 5

iv

Roman Catholic Archdiocese of San
Juan, Puerto Rico v. Feliciano,

589 U.S. ____ (2020), 140 S.Ct. 696 ....................... 7

INTRODUCTION
The petition presents a crucial question of
religious freedom concerning a church’s First
Amendment right to be free from civil interference into
its leadership, structure, and religious doctrine under
the guise of “neutral principles.”
In urging this Court to look away from these
foundational constitutional issues, Respondent
Patterson does not address the doctrinal principles
raised in the petition, or even offer this Court any
reason to ignore them.1 Indeed, he cites no cases or
authority. Instead, his case against review rests
entirely on a stale and disputed factual narrative, in a
transparent attempt to impugn Petitioner Shelton’s
credibility and distract the Court from the bedrock
issues at stake in this matter.
For nearly thirty years, Patterson’s goal has been
to replace Bishop Shelton as General Overseer. He has
always believed he, and not Bishop Shelton, is the
rightful Bishop for the Church. Illustrating the point,
Patterson—excommunicated by the Church many
years ago—signed his Letter in Opposition as “Bishop
Anthonee Patterson.” (Opp. at 4.) Likewise, he now
1 Patterson appears to have authored his Letter in Opposition
himself as if he is now proceeding pro se before this Court, even
though he was represented by counsel in the proceedings below.
Undersigned counsel assumed that same counsel continued to
represent Patterson in this appeal and served them with the
petition. Throughout this litigation, however, Patterson has
alternately presented himself as pro se or represented by counsel
when he believes one or the other may benefit him. Accordingly,
to the extent the Court would ordinarily be inclined to extend the
traditional deference afforded to pro se litigants, it should refrain
from doing so in this instance.

2
says he would be fully satisfied with an
unconstitutional decision of an arbitration that
proposed to install him as President of the Church
Corporation. (Id. at 3–4.) Those claims reinforce the
First Amendment problems inherent in Patterson’s
position, in that the Church believes as a matter of
faith, governance, and structure that the General
Overseer, Bishop Shelton, and not Church outsider
Patterson, shall likewise serve as the President of the
Church Corporation, and thus as steward of the
property held in trust for the Church for his lifetime.
This religious tenet is enshrined in the Church’s
founding documents. The Pennsylvania courts, like
the arbitrator, unconstitutionally ignored these
matters of faith and internal governance under a
perverse incantation of “neutral principles” review. As
the petition explains, unfortunately, they are hardly
alone in such folly. Courts across the country have
taken
divergent
and
often
constitutionally
impermissible approaches over whether issues of
church leadership or governance are justiciable as
disputes involving “neutral principles,” illustrating
the pressing need for review. The Court should grant
the petition.
ARGUMENT
1.
Across the country, houses of worship act
through civil corporate entities to conduct business,
hold title to property, employ staff, and conduct other
activities. The organization and operation of these
entities almost always express deeply held doctrinal
views about how and by whom authority is exercised
in the faith community. Their constitutionally
protected right to do so is expressly articulated by this
Court in Kedroff v. St. Nicholas Cathedral of Russian

3

Orthodox Church in N. Am., 344 U.S. 94 (1952). From

time to time, members of that faith community may
have disagreements over the governance and
operation of those corporate entities, and those
disputes may ultimately spill over into the civil courts.
This Court in Jones v. Wolf, 443 U.S. 595 (1979),
offered the lower courts a way forward in such cases
under the rubric of neutral principles review, but it
has not acted in the intervening decades as those same
courts have struggled to thread the needle offered by
Wolf to resolve disputes without infringing rights
assured under Kedroff. The instant case is only one
example of what happens when a civil court takes an
exceedingly narrow view of the scope of religious
agency expressed through civil corporate entities and
an overly broad view of its ability to parse the secular
and avoid the religious.
2.
Patterson’s only response to this doctrinal
tension between Kedroff and Wolf in the lower courts
is to recycle stale factual allegations of corporate
misfeasance from the early 1990s that he originally
presented in his 1995 Complaint—allegations that
Bishop Shelton has always vigorously denied. (Opp. at
1–3; see also App. at 30–40.) These allegations,
however, are a historical footnote in the life of this
matter that are no longer of any consequence.2
Patterson raises them here only to distract the Court
from the important First Amendment principles at

2 For example, an employee (not Bishop Shelton) used a Church
credit card to make personal purchases, and that employee was
identified, discharged, and referred for prosecution. Neither
Bishop Shelton nor the Church makes any claim of broad
immunity for being held accountable for its own wrongdoing.

4
stake: He argues that because of his disputed claims
about mismanagement of the Church under Bishop
Shelton’s leadership, the infringement of Bishop
Shelton’s, and his Church’s, First Amendment rights
can be bypassed. That response fails for two important
reasons.
First, even if Bishop Shelton or some other
Church leader violated his ethical duties to the
Church, the State can play no role in picking his
successor. That is and has always been a matter for
the Church to decide under Kedroff. But that principle
was intentionally flouted here. The arbitrator
reviewing alleged violations of corporate law
obligations went far beyond the Church Corporation
accounting issues the parties agreed to arbitrate,
deciding, inter alia, that Bishop Shelton should be
stripped of his control of the Church’s property and
that elections for a new General Overseer should be
held because, the arbitrator thought, Patterson “acted
in harmony with the laws, usages, and customs of the
General Assembly before the dispute and dissension
arose.” (App. at 63, 77–78.) In its 2008 Opinion, the
Commonwealth Court rightly vacated these
arbitration adjudications as ultra vires.3 Patterson I,
2008 WL 9401359 (Pa. Commw. Ct. Jan. 31, 2008)
(App. at 110–119). The Commonwealth Court then
affirmed the trial court’s dismissal of the remaining
issues for lack of jurisdiction under the First
3 Contrary to what Patterson asserts in the opposition, Opp. at 3,
that vacatur was in accord with Pennsylvania statutory law. See,
e.g., Jefferson Woodland Partners, L.P. v. Jefferson Hills
Borough, 881 A.2d 44, 48 (Pa. Commw. Ct. 2005) (“[A]n award
may also be corrected if the arbitrator exceeds the scope of his
authority.”) (collecting cases).

5
Amendment. Patterson II, 2015 WL 9260536 (Pa.
Commw. Ct. Dec.18, 2015) (App. at 133–147). But
then, in 2017, the Commonwealth Court inexplicably
held that Wolf required it to strike its own 2008 order
vacating the arbitration adjudication, retroactively
exhuming the arbitration adjudication, and
reinstituting the same relief the Commonwealth Court
itself had held was ultra vires in 2008 and then held
unconstitutional in 2015. Patterson III, 175 A.3d 442
(Pa. Commw. Ct. 2017) (App. at 160–62). The
Commonwealth Court’s 2019 reaffirmance of that
2017 opinion is at issue here. (App. at 1–13). These
contradictory decisions cannot be squared with the
constitutional guarantees of Kedroff and Wolf, and
these are the legal principles that are now at stake—
not disputed corporate accounting allegations from
more than 25 years ago.
Second, although he said he believed that
Patterson “acted in harmony with the laws, usages,
and customs of the General Assembly,” the arbitrator
recognized he could not install Patterson as General
Overseer without violating the First Amendment.
(App. at 77–78.) Instead, the arbitrator purported to
remove Bishop Shelton as President of the Church
Corporation so he could place Patterson in control of
the Church’s property. To do so, he suspended
operation of the provisions of the Church Bylaws and
Articles of Incorporation—corporate documents that
reflect the Church’s doctrine that the General
Overseer shall also be the President of the Church
Corporation for his lifetime so that control of Church
property vests forever under the General Overseer’s
control. (App. at 86.) If a religious leader violates his
obligations and steals from his Church, he is justly

6
subject to both religious and secular sanction. But one
sanction the Religion Clauses deny the State is the
appointment of a non-member to a leadership position,
in derogation of the Church’s own doctrine.
Patterson concedes that the disputed arbitration
award “places [him] in the position of receiver for the
Church’s secular corporate entity and the property it
holds and controls in the name of the Church.” (Opp.
at 4.) Thus, should the opinion below stand, nonmember Patterson will be in control of the Church
property itself—the actual buildings where worship is
held—and Bishop Shelton and his congregation will be
locked out—a result Patterson foreshadows by
declaring Bishop Shelton “can be the Bishop anywhere
he wants to[.]” (Id.) In addition, other duly elected
officers of the Church Corporation will be removed and
Patterson will be able to hold Church elections—all
powers reserved for the General Overseer as articles
of faith. By resurrecting the adjudications (after
properly invalidating them in 2008 and 2015), the
Commonwealth Court misapplied the principles of
Kedroff, Wolf, and their progeny, just as dozens of
lower courts have done since this Court rendered those
opinions.
3.
That is the crux of the issue: how can a civil
magistrate decide a dispute that infringes upon the
church’s constitutionally guaranteed right of selfgovernance in a way that is contrary to that church’s
religious beliefs? Lower courts should apply the same
“neutral rules” that extend to the “difficult questions”
of whether civil authorities may question a church’s
understanding of its governing structure and whether
the First Amendment places a limit on civil liability to
the extent such liability threatens the free exercise

7
rights of the church’s members. Roman Catholic
Archdiocese of San Juan, Puerto Rico v. Feliciano, 589

U.S. ____ (2020), 140 S.Ct. 696, 702 (Alito, J.,
concurring). The petition demonstrates that they
struggle to do so and that they urgently need guidance
from this Court. Patterson offers no reasons why this
case is not suitable for review.
4.
Last Term, this Court reviewed and decided
certain consolidated cases that presented the doctrinal
situations analogous to those presented here. In 2012,
a unanimous Court held there is a Ministerial
Exception in both Religion Clauses of the First
Amendment. Hosanna-Tabor Lutheran Church &
School v. E.E.O.C., 565 U.S. 171 (2012). The Court
applied that exception to a teacher who exhibited four
factual characteristics that indicated she was a
“minister,” including that she had that title. Lower
courts split on whether those factors were
determinative or simply illustrative. Confronted with
litigation from employees who lacked that title but
still performed vital religious functions, churches
argued that a taxative 4-factor list struck the balance
in a way that exposed too many churches to claims
that infringed their protected constitutional liberties.
In Our Lady of Guadalupe School v. Morrissey-Berru,
591 U.S. ___ (July 8, 2020), 140 S. Ct. 2049, this Court
corrected that narrow view, holding that it was
unconstitutionally invasive and not deferential
enough to the ability of religious bodies to govern
themselves:
If titles were all-important, courts would have
to decide which titles count and which do not,
and it is hard to see how that could be done
without looking behind the titles to what the

8
positions actually entail. Moreover, attaching
too much significance to titles would risk
privileging religious traditions with formal
organizational structures over those that are
less formal.
591 U.S. at ___, 140 S. Ct. at 2069.
Just as this Court acted in the area of the
ministerial exception to avoid having courts take too
narrow a view of the churches’ protected interests in
managing the religious workplace that expresses
religious doctrine, the Court needs to act here. As this
case illustrates, too many courts are threading the
Wolf needle in ways that override the protections long
guaranteed by this Court. Such efforts invariably chill
the robust exercise of religious rights in the control
and governance of temporal affairs, as it did in the
area of personnel management. In this specific case,
the decision also has the effect of imposing an
unwanted leader on a religious community, in
violation of rights assured to the Church. HosannaTabor, 565 U.S. at 188. Just as it did in Guadalupe,
when it exercised its authority to give direction to
lower courts that plainly were conflicted as to the
proper application of the Religion Clauses, the Court
should grant the petition here.4

4
Given the plain error, this case would also be suitable for
summary disposition, to grant, vacate, and remand with
instructions to dismiss the matter and settle this long course of
litigation.

9
CONCLUSION
The Petition for a Writ of Certiorari should be
granted.
Respectfully submitted,
Mark E. Chopko
STRADLEY RONON STEVENS &
YOUNG, LLP
2000 K Street, N.W.
Suite 700
Washington, D.C. 2006-1871
(202) 419-8410
mchopko@stradley.com

Danielle Banks

Counsel of Record

Adam D. Brown
Brandon M. Riley
STRADLEY RONON STEVENS
& YOUNG, LLP
2005 Market Street
Suite 2600
Philadelphia, PA 19103
(215) 564-8116
dbanks@stradley.com

Counsel for Petitioner Bishop Kenneth Shelton

September 23, 2020

